I

No. 19-476
IN THE
SUPREME COURT OF THE UNITED STATES
DR. USHA JAIN AND MANOHAR JAIN
Petitioners,
v.
DAVID BARKER, MARY BETH VALLEY,
MICHAEL FURBUSH and ROETZEL &
ANDRESS, L.P.A.,
Respondents.
On Petition for Writ of Certiorari to the Fifth District
Court of Appeals of State of Florida for Eleventh
Circuit Florida
SUPPLEMENTAL BRIEF TO THE PETITION
FOR WRIT OF CERTIORARI
Dr. Usha Jain, Pro Se
Manohar Jain, Pro Se
4800 S. Apopka-Vineland Rd.
Orlando, FL 32819
Ph.: (407) 876-5555
Fax: (407) 876-5555
Emaihdrj ainproselitigant@outlook.com
ialnemergicare@outlook.com

November 12, 2019

received
NOV 18 2019

si

i
QUESTIONS PRESENTED FOR THE
SUPPLEMENTAL BRIEF
Can State officers in trial court retaliate against
colored, self-representing litigants of ethnic origin for
filing the case in the Supreme Court regarding
violation of 14th Amendment rights? This is a
violation of U.S. Code § 12203 (a) Title VII. It is in
direct conflict with an established precedent set by
the Supreme Court of Anti-Retaliation Principle in
employment cases.
Should this Court resolve the question of whether
attorney fees should be awarded by defrauding and
defiling Florida Statutes 57.105 and 768.79 and
720.311 in retaliation against colored people? The
effect of these would be projected to millions of
people who would not be able to get justice in the
court, which is in violation of the 1st Amendment and
14th Amendment rights.
The court should resolve the question of
retaliation by state officers against a protected class,
specifically colored, self-representing litigants of
ethnic origin for asserting their rights. The question
is of great importance because citizens would be
afraid to complain about unlawful acts that are in
violation of the Constitution of America, Supremacy
Clause. These are issues of great public importance
due to their violation of Amendment rights.

11

LIST OF THE PARTIES
All parties appear in the Caption of the case on the
cover page.
Case No. 1
Dr. Usha Jain and Manohar Jain,
Petitioners,
v.
David Barker. Marv Beth Valiev.
Michael Furbush and Roetzel and Andress L.P.A.
Respondents.

Case No. 2
Manohar Jain, and Dr. Usha Jain
Petitioners,
v.
Bay Hill Property Owners Association. Inc.
Respondents.

iii
TABLE OF CONTENTS

1
2
3

SUPPLEMENT BRIEF INTRO................
OPINIONS BELOW......................•.............
JURISDICTION...........................................
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED.........................

ARGUMENT...................................

3
4
.6

REASONS FOR GRANTING THE WRIT

13

STATEMENT OF THE CASE..................

1. The decision below conflicts with this AntiRetaliation Principle of this Court’s takings
precedents...................................................................... 13
2. This case is an ideal vehicle to address the
retaliatory acts of State officers with disregard to the
14
violation of the FS 57.105, 768.79 and 720.31
3. This case is of great importance where
millions of people cannot submit the protective acts
of unlawful activity due to retaliation by the State
14
officers
4. The decision below for award of attorney fees
in retaliation conflicts with decision of other same
state court of last resort and also other states of last
14
resort
CONCLUSION

15

IV

INDEX TO APPENDICES
CASE NO 1 5D18-1215
The opinion of the state court of last resort of January 22,
App. 1
2019 to review the merits of attorney fees
The opinion of the state court of lost resort order to strike the
App. 2
clarification of October 21,2019
The opinion of the state court of lost resort order of denial of
App. 2a
“Manifest Injustice”
CASE NO 2 5DI8-2033 08-12-2019 Bay Hill Property
Owners Association, Inc. vs. .Dr. Usha Jain and Manohar
Jain. The opinion of the state court of last resort to review the
merits appears at Appendix
Order of February 26, 2019 for the Appellate fee on
App. 3
statutory 720.311
Order of August 12, 2019 Review of the order of the
App. 4
fee denied
Order of June 25, 2019 for Stay

App. 5

Order of June 25, 2019 Final Judgement

App. 7

Order of June 25, 2019 for Attorney Fees

App 15

Order of August 1, 2019 Rehearing

App 22

V

Table of Authorities for Retaliation
Cases supporting no Recovery of Attorney Fees for
Failure to Mandatory Mediation
Alhambra Homeowners Association, Inc. u.
Asad, 943 So. 2d 316 (Fla. 4th DCA 2006)

10

Brosnan v. Dry Cleaning Station, Inc. 2008 WL
2388392 (N.D. Cal 2008) (Failure to mediate
a
warrants dismissal.");

7

Conrad v. Hidden States Mandatory mediation
for attorney fees

10

Goudie v. Garcia, 584 So. 2d 100, 101 (Fla. 3d
DCA 1991) (evidentiary hearing required to
resolve disputed facts raised in motion to
vacate for mediation);

7

3-J Hospitality, LLC u. Big Time Design, Inc.
(SD FL 2009) bound to mediate the claims

10

Neute v. Cypress Club Condominium, Inc., 718
So. 2d 390, 392 (Fla. 4th DCA 1998) .

10

Ocasio v. Froedtert Memorial Lutheran
Hospital, 637 N.W. 2d 459 (200l)interpreting
statutory presuit mediation.... a matter of law

10

Woods v. Holy Cross Hospital 591 F. 2d 1164
(5th Cir. 1979) presuit mediation mandatory

10

VI

Table of Authorities for Retaliation
Case supporting Fraud for Reason of Dismissal
” Aoude v. Mobil Oil Corp., 892 F.2d 1115, 1118
(1st Cir. 1989)
Ashwood v. Patterson, 49 So.2d848,850 (Fla.
1951);
Cox v. Burke, 706 So.2d 43, 47 (Fla. 5th DCA
1998)

9
9
9

Fair u. Tampa Elec. Co., 158 Fla. 15. 27 So.2d
514 (1946)

9

Fagan V. Powell, 237 So.2d 579 (Fla. 3d DCA 1970)).

9

Figgie Int'l, Inc. v. Alderman, 698 So. 2d 563 (FI. DCA
1997); review dismissed, 703 So. 2d476 (Fla. 1997);

9

Hazel c-Atlas, 322 U.S. at 250-51, 64 S.Ct. at
1003-04. vacating a judgment..... fraud
Hanono u. Murphy, 723 So. 2d 892, 895 (Fla.3d
DCA 1998
Horjales u. Loeb, 291 So.2d 92, 93 (Fla. 3d DCA
1974); ;
Kornblum v. Schneider, 609 So. 2d 138 (Fla.
4th DCA
Mendez v. Blanco, 665 So. 2d 1149 (Fla. 3d
DCA 1996
Metropolitan Dade County v. Martinsen, 736
So. 2d 794, 795 (Fla. 3d DCA 1999).
O'Valey v. Miller, 664 So. 2d, 550,550 Fla.3d
DCA 1994),; 1992
Tramel v. Bass, 672 So. 2d 78, 83 (Fla. 1" DCA 1996).

7

9
9
9
9
9
9

Vll

Retaliation
Cases for proving, three things required
Chandamuri u. Georgetown Univ., 274 F. Supp.
2d 71, 83 (D.D.C. 2003);

12

Gates u. Caterpillar, Inc., 513 F.3d 680, 686
(7th Cir. 2008 (for causal connection)

12

Gutierrez v. Wash. Dep’t of Soc. & Health
Servs., CV-04-3004-RHW, 2005 WL 2346956,
at *5 (E.D. Wash. Sept. 26, 2005)

12

Jackson v. Birmingham Bd. ofEduc., 544 U.S.
167, 173-74 (2005).

11

Krouse v. Am. Sterilizer Co., 126 F.3d 494, 503
(3d Cir. 1997) (“the timing of the alleged
retaliatory action must be ‘unusually
suggestive’ of retaliatory motive before a causal
link will be inferred.”); Palmer, 918 F. Supp. 2d
at 199

12

12
Loudermilk u. Best Pallet Co., 636 F.3d 312,
315 (7th Cir. 2011) (“an adverse action [that]
comes so close on the heels of a protected act
that an inference of causation is sensible”));”
Peters v. Jenney, 327 F.3d 307, 318 (4th Cir.
2003)
Treadwell v. Office of III. Secy of State, 455
F.3d 778, 781 (7th Cir. 2006)).

12
12

Vlll

US CODES § 12203
Is r Amendment

3,
13
14

14th Amendment

13,
14

Title VI Section 8

12
12

Title VII of the Civil Rights Act of 1964
TITLE 18, U.S.C., SECTION 242
FS Statutes 720.311

10
1-5
1014

FS 57.105

1
4-6
11
14

FS 768.79

4

1
IN THE SUPREME COURT OF THE UNITED
STATES SUPPLEMENT BRIEF TO PETITION
FOR WRIT OF CERTIORARI
INTRODUCTION
This supplemental brief to the petition for
consideration of the court is properly restricted in
accordance with Supreme Court Rule 15.8 to
intervening matter not available at the time of the
Petitioner’s last filing. This brief is necessary
regarding the retaliation by the state officers of the
colored Plaintiffs for asserting their rights in the
Supreme Court. Petitioners have a reasonable
believe that the retaliation is due to the filing of the
notice of the writ of certiorari on May 28, 2019 in the
lower court Filing no. 90202267
The states officer Judge Weiss retaliated by
awarding attorney fees by violation of the Florida
statutes 720.311 and also without the evidentiary
hearing for fraud upon the court by the opposing
counsel in case #2.
Same Judge Weiss also presided in case no 1 and
had to be recused on September 9, 2019 for
discrimination and due process violations of colored
self-representing Jains of ethnic origin New Judge
Roche who is the supervisor of Judge Weiss took over
the case. Judge Roche also retaliated the Jains by
omitting the entitlement per FS 57.105. Entitlement
was supposed to be for either party but Judge Roche
started calculating the attorney fees for the attorneys
from the unprotected class.

2
IN THE
SUPREME COURT OF THE UNITED STATES
SUPPLEMENT TO PETITION FOR WRIT OF
CERTIORARI
Petitioner respectfully prays that a writ of certiorari
issue to review the supplemental judgment below.
OPINION BELOW
CASE NO.l 5D18-1215 01-22-2019 for attorney fees Dr.
Usha Jain and Manohar Jain v. David Barker, Mary Beth
Valley and Michael Furbush and Roetzel and Andress
The opinion of the state court of last resort to review the
App. 1
merits of attorney fees appears at
The opinion of the state court of lost resort order to strike the
App.2
clarification
CASE NO 2 5D18-2033 02-26-2019 Bay Hill Property
Owners Association, Inc vs. .Dr. Usha Jain and Manohar
Jain. The opinion of the state court of last resort to review the
merits appears at Appendix
Order of February 26, 2019 for the Appellate fee on
App. 3
statutory 720.311
Order of August 12, 2019 Review of the order of the
,.App.4
fee denied......................................................
..App. 5
Order of June 25, 2019 for Stay................
..App.
7
Order of June 25, 2019 Final Judgement
..Appl5
Order of June 25, 2019 for Attorney Fees
.App 22
Order of August 1, 2019 Rehearing.........

3
JURISDICTION
The case is already filed in the Supreme Court and is
docketed on October 10, 2019. The supplemental
brief is submitted due to retaliation by the Judges
due to filing of the case of discrimination and due
process by the Jains in the Supreme Court
SUPPLEMENTAL BRIEF - CONSITUTIONAL
AND STATUTORY PROVISIONS INVOLVED
42 U.S. Code § 12203 prohibits discrimination and
retaliation
(a) Retaliation - No person shall discriminate against
any individual because such individual has opposed
any act or practice made unlawful by this
chapter or because such individual made a
charge, testified, assisted, or participated in any
manner in an investigation, proceeding, or hearing
under this chapter.

•

•

A state court has retaliated the Jains which is
against the anti- retaliation principle of the
Supreme Court.
Judge Weiss retaliated in Case no. 2 by
awarding attorney fees which is against FS
720.311 and intentionally omitted to do the
evidentiary hearing on fraud upon the court
and jurisdictional issue. Judge Weiss
pretexted as following the law but in reality
the award of attorney fees was in retaliation
and was against the Florida Statutes

4

•

•

720.31 l.This court has an authority to resolve
the defrauding FS 720.311
Same Judge Weiss retaliated in case no. 1 by
obstructing the discovery required for FS
57.105 and also for the validity of FS 768.79.
A state court of last resort has decided an
important federal question in a way that
conflicts with the decision of another state
court of last resort regarding pre-suit
mandatory mediation required before filing a
claim;

Statement of the Case for the Supplemental
Brief
This supplement brief is for the retaliation by
the Judge Weiss who presided in both cases. The
self-representing Plaintiffs who are colored and of
ethnic origin filed the case in US Supreme Court
for the due process violation and discrimination
The retaliatory activity started right after the
filing of the notice in the trial court

STATEMENTS OF THE FACTS OF CASE NO 2
2015-CA-8175-0
Retaliation bv Judge Weiss
Judge Weiss presided in the above case and knew
about the writ of certiorari in the Supreme Court.
In the hearing of June 21, 2019, Judge Weiss
heard the motion to stay but the opposing counsel
Andrew Roy and Mya Hatchette stated that there is
no filing in the US Supreme Court. Judge denied the
stay even when it was known to Judge Weiss that
the case is in the US Supreme Court.

V

5
Judge Weiss again did not look for the entitlement
of the supplemental attorney fees per FS 720.311.
Florida Statutes 720.311 2 (b) is very clear about
attorney fees, the party who fails to mediate cannot
recover attorney fees. Below is part of the FS
Additionally,
notwithstanding
the
provisions of any other law or document,
persons who fail or refuse to participate in
the entire mediation process may not
recover attorney’s fees and costs in
subsequent litigation relating to the
dispute.
Judge Weiss knew, about this rule and also the fact
that mediation was not done by the opposing
counsel even when the consent to mediate was
signed timely by Defendant Jains. There were two
outstanding motions for fraud upon the court and
jurisdictional issues which were pending. Judge
Weiss disregarded the pending dispositive motions
of the Jains which were about the issues of the law
and required the evidentiary hearing. In retaliation
Judge Weiss directly went to the attorney fee and
pretext that the fee was awarded per FS 57.105
when the case did not even involve FS 57.105
Judge Weiss denied the rehearing even when all the
cases which were cited, supported, that attorney fees
could not be recovered if the pre-suit mandatory
mediation is not done.
Appeal court affirmed his decision on August 12,
2019 to award the supplemental attorney fees
without regard to fraud and defrauding of FS
720.311.

6
CASE No. 1. 2016-CA-7260-Q
Same Judge Weiss presided in this case and the
entitlement for the attorney fees was required for
the sanction fee award to either party because the
both parties have filed the motion for sanctions
per FS 57.105. Judge Weiss.
Judge Weiss have to be recused for retaliation in
case 2 and was recused on September 09, 2019.
Judge Roche who was the supervisor of the Judge
Weiss took over the case.
Retaliation bv Judge Roche
On September 11, 2019, (two days after the
recusal of Judge Weiss), Judge Roche, in
retaliation, omitted the entitlement per FS
57.105 which was required for attorney fees.
Judge Roche overruled the objection of the Dr.
Jain who is in protected class. In retaliation
Judge Roche calculated the attorney fees. Judge
Roche also did not hear the witnesses of colored
Plaintiffs who waited all day to prove that there
was no bad faith.
Argument
CASE NO. 2. 2015 CA-8175-Q
Retaliation bv Judge Weiss bv Ignoring
Fraud unon the Court bv Attorney
Hatchette
Judge Weiss retaliated the Jains by ignoring the
fraud upon the court by attorney Hathette on June
21, 2019 who misrepresented the court about the
stay (there is no filing in the Supreme Court, and
entitlement about the attorney fees for which

7
medaition was required per FS 720.311. Judge Weiss
denied the stay and ignored fraud for attorney fees in
retaliation. The hearing was noticed for stay and
entitlement but Judge went directly to attorney fees
wihout entitlement per mediation, iton.enticoncealed
the signed consent for the presuit mediation from the
law suit which was filed on September 1, 2015. “The
trial court has the inherent authority, within the
exercise of sound judicial discretion, to dismiss an
action when a plaintiff has perpetrated a fraud on
the court. Hazel-Atlas, 322 U.S. at 250-51, 64 S.Ct. at
fraud Brosnan v.
1003-04, vacating a judgment
Dry Cleaning Station
The signed consent is in the record everywhere
and was also resubmitted to Judge Weiss before the
hearing of June 21, 2019. The Jains filed the notice
of writ of certiorari for the US Supreme Court (in the
trial court on May 28, 2019). Judge Weiss retaliated
the Jains in the above hearing which was on June
21, 2019 and awarded attorney fees and ignored
fraud upon the court.without an evidentiary hearing.
Goudie u. Garcia, 584 So. 2d 100, 101 (Fla. 3d DCA
1991
Lying about facts central to the case, including the
nature and extent of one’s own injuries, simply
cannot be tolerated and, frequently, cannot be
remedied by any lesser sanction than dismissal with
prejudice. The plaintiffs false or misleading
statement given under oath concerning issues central
to her case amounted to fraud. See Cox v. Burke, 706
So. 2d 43, 47 (Fla. 5th DCA 1998).

!

8
The Plaintiffs counsel inserted an unsigned BOGUS
DOCUMENT when she already had a signed consent
to mediation in her possession as shown below
U'Z.TCHSCCdfM FlUSO IN OFFICE TIFFANY U DUSSEll Cl£«*K CIRCUIT COURT CHANGE CO FI

JMo&Uitts g* (Mi MtttJNr iianMWittaMw. By taw,
^aaW%'^IaJrtywW«s^«@SSed,aM1iy:fe«"«l«itai) to me »it!K,-»daaa9

-MofewnsJlfcHtes,
WcdA'Wopdmip.M.
*319 Park Avermc North, Sccocd Floor

>,o,:iws<tso

SrivBsHdSilOTa-OSM

I EXHIBIT

AGREEMENT TO m&iATE

! UsJwJateMD

- The
hereby 8gr<« fe ptfieipafe presuil aasdlaifeo and .agree*. la attevU
mediation «©f4u«ed:by fbp following tawli^or at mtdipfers wham? Iwsicd above w somcooe1
whou’otildbeaccept^hnoawaaiaicthiidispuic:
Me&stoc:
l/^farthCTfgrw.bpayot prepay one-balf of foe mediator's fees end ia forward suarsdvaace
deposit as the. «*<S/ajbr my n^tarc for this i^rpwc.
fs$ (~)
OsnaMti

.Vlanohslr /sin

"

Telephone Contact htb,r

<^^4
(2^—

.*£& ■ ■ •

^^QtCknAer) £L

.

Jpr

Ciicot

pi#
•m

-SSSir

Jesh

^^e^Urt^nn^TQ

& V**
6c:

JU !

9f0skftJm ;

The appeal court affirmed on August 12, 2019
without any regard to fraud upon the court for and
mediation. Previously Judge Eisinaugle recused from
the case, must know the other party

9
Judge Weiss in retaliation completely disregarded
the notion for fraud for attorney fees.
“That a party who has been guilty of fraud or
misconduct in the prosecution or defense of a civil
proceeding should not be permitted to continue to
employ the very institution it has subverted to
achieve her ends.” Metropolitan Dade County v. It is
also well-settled law "that a party who has been
guilty of fraud or misconduct in the prosecution or
defense of a civil proceeding should not be permitted
to continue to employ the very institution it has
subverted to achieve her ends" Metropolitan Dade
County v. Martinsen, 736 So. 2d 794, 795 (Fla. 3d
DCA 1999). (quoting Hanono v. Murphy, 723 So. 2d
892, 895 (Fla.3d DCA 1998 (citing Carter v. Carter.
88 So.2d 153,157 (Fla. 1956);As/iu;oo(i v. Patterson,
49 So.2d848,850 (Fla. 1951); Cox v. Burke, 706 So.2d
43, 47 (Fla. 5th DCA 1998); Figgie Int'l, Inc. v.
Alderman, 698 So. 2d 563 (FI. DCA 1997); review
dismised, 703 So. 2d476 (Fla. 1997); Mendez v.
Blanco, 665 So. 2d 1149 (Fla. 3d DCA 1996); O'Valey
v. Miller, 664 So. 2d, 550,550 Fla.3d DCA
1994),;Kornblum v. Schneider, 609 So. 2d 138 (Fla.
4th DCA 1992) ; Horjales u. Loeb, 291 So.2d 92,
93 (Fla. 3d DCA 1974); Fair v. Tampa Elec. Co., 158
Fla. 15. 27 So.2d 514 (1946): Fasan v. Powell, 237
So.2d 579 (Fla. 3d DCA 1970)).
Because the record clearly establishes that plaintiff
engaged in serious misconduct, we hold that she has
forfeited her right to proceed.
Plaintiffs attempt to conceal the signed mediation
does not constitute “truthful disclosure,” McNally v.
U.S., 483 U.S. 350,371-372 (S.Ct. 1981),_quoting
U.S. u Holzer, 816 F.2d. 304, 307 (7th Cir. 1987).

10
In Destafano v. State Farm Mutual Automobile
Insurance Co., 28 Fla. L. Weekly D1077 (Fla. 1st
DCA April 28, 2003), the First DCA affirmed the
dismissal with prejudice of an uninsured motorist’s
claim for various false statements and omissions on
matters central to the issues in her lawsuit.” See
also Long u. Swofford, 805 So. 2d 882 (Fla. 3d DCA
2003)
Retaliation hv Judge Weiss bv Defrauding FS
720.311
Judge Weiss in retaliation disregarded the statutes
720.311 even when the following was clear:
(i)Fee can be awarded only if the precedent condition
of pre-suit mediation was made by the prevailing
party (ii)It is also undisputed that mediation is not
done in this case;(iii)It is also undisputed that the
Defendants signed the consent for mediation and
selected the mediator per statutes and it is in the
record everywhere.
FS 720.311 is being non ambiguous and with a clear
legislative intent behind this stature, to avoid
clogging of the court with noncompliant suits. Cases
for
attorney
fees:
Alhambra
Homeowners
Association, Inc. Conrad v. Hidden States, Neute u.
Cypress Club Condominium,3-J Hospitality, LLC v.
Big Time Design, Inc. Ocasio v. Froedtert Memorial
Lutheran Woods u. Holy Cross Hospital 591 F. 2d
1164
Section 242 of Title 18 makes it a crime for a person
acting under color of any law to willfully deprive a

11
person of a right or privilege protected by the laws or
Constitution of the United States
Retaliation can be proved by three things:
Plaintiffs Jains engaged in the protected
1.
activity of filing the case in the Supreme Court for
discrimination and due process violation which was
filed in the trial court on May 28, 2019. “Plaintiffs
had a good faith, reasonable belief that the
underlying challenged actions of the Judge Weiss
violated the federal and statutory law and deprived
the plaintiff of their rights.”
Judge Weiss awarded attorney fees to the
2.
opposite party by ignoring the fraud upon the court
and jurisdiction issue in violation of FS 720.311
There is a causal link between the Jains’
3.
protected act of filing and Judge Weiss awarding
attorney fees on June 21, 2019.without considering
fraud upon the court and also jurisdiction issue
raised by the Jains
Case no. 1
Judge Weiss was recused due to intentional
retaliation of the petitioners in case no 2. On
September 9, 2019. Judge Roche took over the case
who is the supervisor of Judge Weiss. Judge Roche
during the hearing on September 11, 2019, again in
retaliation directly went to attorney fees without an
entitlement of either party. This was done in
retaliation of the protected class by defrauding the
FS 57.105 which requires entitlement by considering
the issue of the fact, law and bad faith.
The Supreme Court has defined retaliation as an
intentional act in response to a protected action.

12
Jackson v. Birmingham Bd. of Educ., 544 U.S. 167,
173-74 (2005).
It is well-settled that Title VI supports retaliation
claims. See, e.g., Peters v. Jenney, 327 F.3d 307, 318
(4th Cir. 2003); Chandamuri u. Georgetown Univ.,
274 F. Supp. 2d 71, 83 (D.D.C. 2003); Gutierrez v.
Wash. Dep’t of Soc. & Health Servs., CV-04-3004RHW, 2005 WL 2346956, at *5 (E.D. Wash. Sept. 26,
2005)
Causal connection exists between the two events.
Gates v. Caterpillar, Inc., 513 F.3d 680, 686 (7th Cir.
2008) (citing Treadwell v. Office of Ill. Sec’y of State,
455 F.3d 778, 781 (7th Cir. 2006)). Under this
evidence method, a plaintiff must present evidence of
discriminatory intent that does not require support
from inferences.
Temporal proximity between the complainant’s
protected activity and the recipient’s adverse actions
often is relevant to a determination of causation. See,
e.g., Loudermilk v. Best Pallet Co., 636 F.3d 312, 315
(7th Cir. 2011) (“an adverse action [that] comes so
close on the heels of a protected act that an inference
of causation is sensible”); Krouse v. Am. Sterilizer
Co., 126 F.3d 494, 503 (3d Cir. 1997) (“the timing of
the alleged retaliatory action must be ‘unusually
suggestive’ of retaliatory motive before a causal link
will be inferred.”); Palmer, 918 F. Supp. 2d at 199
It is a form of “discrimination” because the
complainant is being subjected to differential
treatment.” Gutierrez, 2005 WL 2346956

13
Retaliation is a deliberate action used to send a
clear message that complaining is unwelcome and
risky. It is employed to instill fear in others who
might consider making a complaint in the future.
Those with cause for complaining are frequently
among the most vulnerable in an institution. Once
they complain, they are labeled “troublemakers.”
Retaliation, and the fear of retaliation, becomes a
potent weapon used to maintain the power structure
within the institution.
SUPPLEMENTAL REASONS TO GRANT A
PETITION FOR A WRIT OF CERTIORARY
1. THE DECISION BELOW CONFLICTS
WITH THIS COURT’S TAKINGS PRECEDENTS
OF ANTI-RETALIATION PRINCIPLE: The decision
Court’s
below is in conflict with the Supreme
decision This Court had a precedent where the anti­
retaliation principles were employed in many
employment cases and similar analysis can be used
in the instant case where the State officers in the
trial court retaliated colored self-representing
litigants of ethnic origin for filing the case in the
Supreme Court regarding violation of l4th
Amendment rights Retaliation is a form of
intentional discrimination for a protected act and is a
violation of U.S. Code § 12203 (a) Title VII. It is in
direct conflict with an established precedent set by
the Supreme Court of Anti Retaliation Principle in
employment cases.

14
2. THIS CASE PRESENTS A QUESTION OF
GREAT IMPORTANCE OF PROTECTED ACT
AND
RETALIATION
BY
THE
STATE
OFFICERS BY STATUTORY VIOLATION OF
FS 57.105 and 720.311 REQUIREMENT
This question of great importance because millions of
colored and self-representing people would be afraid
to go to the court to get the justice for retaliatory
actions in awarding attorney fees which is against
the rule and FS 57.105 and 720.311.
3. The question is of exceptional importance
because the millions of people would never be able to
do a protected activity against a state officer and
Supremacy Clause of the Constitution can never be
exercised. The effect of these will be projected to
millions of people who would continue to be the
victim of retaliation and would not be able to get the
justice in the court which is the 1st Amendment and
14th Amendment rights of the citizens.
4. The decision below for award of attorney fees
in retaliation conflicts with decision of other same
state court of last resort and also other states of last
resort

15
CONCLUSION
Petitioners pro se Dr. Usha Jain and Manohar Jain
respectfully request that this Court consider the
supplement question of retaliation to grant petition
for writ of certiorari filed and docketed on October
10, 2019.
Respectfully submitted on this November 12, 2019.

•P^4*
o>y~
n

^CLs—“S'

—>

Dr. Usha Jain and Manohar Jain
4800 S. Apopka Vineland Road, Orlando, FL 32819
Telephone: (407) 876-5555
Email: driainproselitigant@outlook.com
j ainemergicare@outlook.com

App. 1
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
DR. USHA JAIN AND
MANOHAR JAIN,
Appellants,

CASE NO. 5D18-1215

v.

DAVID BARKER, MARY
BETH VALLEY, MICHAEL
FURBUSH AND ROETZEL
AND ANDRESS, P.A.,
Appellees.
DATE: January 22, 2019
BY ORDER OF THE COURT:

ORDERED that Appellees' Motion for Attorneys'
Fees, filed October 29, 2018, is granted and the
above-styled cause is hereby remanded to the Circuit
Court for Orange County, Florida, pursuant to
Florida Rule of Appellate Procedure 9.400(b), to
determine and assess reasonable attorney's fees for
this appeal. Further, it is
ORDERED that Appellant, Manohar Jain's Motion
for Attorney's Fees, filed October 15, 2018, is denied.
I hereby certify that the foregoing is
(a true copy of) the original Courtorder.

VIOANINE-P; SlMMONS/CLERK
.Panel: Judges
Edwards, Sasso, and Jacobus
David J. Lienhart Erich Schuttauf
Thomas P. Wert
Usha Jain, M.D.
Michael J. Furbush

f

App. 2a

£

IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
DR. USHA JAIN AND
MANOHAR JAIN,
Appellants,

CASE NO. 5D18-1215

v.
DAVID BARKER. MARY
BETH VALLEY. MICHAEL
FURBUSH AND ROETZEL
AND ANDRESS, P.A.,
Appellees.
DATE: November 12, 2019
BY ORDER OF THE COURT:
ORDERED that Appellants' “Motion to Prevent
Manifest Injustice

,” filed November 5, 2019, is

denied..
I hereby certify that the foregoing is
(a true copy of) the original Court order.

yyt&swru-s
^JOANNE P SIMMONS. CLERK
.Panel: Judges

Edwards, Sasso, and Jacobus

Thomas P. Wert
Michael J. Furbush

David J. Lienhart
Usha Jain, M.D.

Erich Schuttauf

App. 2a
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
DR. USHA JAIN AND
MANOHAR JAIN,
Appellants

CASE NO. 5D18-1215

v.
DAVID BARKER, MARY
BETH VALLEY, MICHAEL
FURBUSH AND ROETZEL
AND ANDRESS, P.A.,
Appellees.

DATE: November 12, 2019
BY ORDER OF THE COURT:
ORDERED that Appellants' “Motion to prevent
Manifest Injustice

,” filed November 5, 2019, is

denied..
I hereby certify that the foregoing is
(a true copy of) the original Court order.

?OANNE P. SIMMONS.. CLERK
.Panel: Judges

Edwards, Sasso, and Jacobus

Thomas P. Wert
Michael J. Furbush

David J. Lienhart
Usha Jain, M.D.

Erich Schuttauf

App. 3
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
MANOHAR JAIN, AS TRUSTEE, AND ITS
SUCCESSORS OR SUCCESSOR TRUSTEES
UNDER THE MANOHAR JAIN TRUST DATED
JULY 1, 2000 AND USHA JAIN, AS TRUSTEE,
AND ITS SUCCESSORS OR, ET AL„
CASE NO. 5D18-2033
Appellants,
v.
BAY HILL PROPERTY OWNERS
ASSOCIATION, INC.,
Appellee.
DATE: February 26,2019
BY ORDER OF THE COURT:
ORDERED that Appellee’s Motion for Attorneys
Fees and Costs, filed October 29, 2018, is granted
and the above-styled cause is hereby remanded to
the Circuit Court for Orange County, Florida,
pursuant to Florida Rule of Appellate Procedure
9.400(b), to determine and assess reasonable
attorney's fees for this appeal. Further, it is
ORDERED that Appellants' Motion for
Attorney's Fees, filed October 29, 2018, is denied.
I hereby certify that the foregoing is
(a true copy of) the original Court order.

JOANNE P„ SIMMONS, CLERK

Panel: Judges Evander, Lambert, and Harris
Mya M. Hatchette
C. Andrew Roy Erich Schuttauf
Orange Cty Circuit Ct Clerk (2015-CA-8175-0)

App. 4

i-

IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA, FIFTH DISTRICT
MANOHAR JAIN, AS TRUSTEE, AND ITS
SUCCESSORS OR SUCCESSOR TRUSTEES
UNDER THE MANOHAR JAIN TRUST DATED
JULY 1, 2000 AND USHA JAIN, AS TRUSTEE,
AND ITS SUCCESSORS OR, ET AL.
Appellants,

CASE NO. 5D18-2033

v.

BAY HILL PROPERTY OWNERS
ASSOCIATION, INC.,
Appellee.
DATE: August 12, 2019
BY ORDER OF THE COURT:
ORDERED that Appellants' Motion for Review of the
Order Awarding Fees Rendered on June 25, 2019, is
denied.
I hereby certify that the foregoing is
(a true copy of) the original Court order.

il®
LJQANNE P..SIMMONS, CLERK

Panel: Judges Evander, Lambert, and Harris
Cc: My a Hatchette C. Andrew Roy Erich Schuttauf

App. 5
t.

Filing# 91622036 E-Filed 06/25/2019 11:27:04 AM
IN THE CIRCUIT COURT OF THE
NINTH JUDICIAL CIRCUIT, IN AND
FOR ORANGE COUNTY, FLORIDA
BAY HILL PROPERTY OWNERS
ASSOCIATION INC.
Plaintiff(s),
2015-CA-008175-0
vs.
MANOHAR JAIN
USHA JAIN AS TRUSTEE AND ITS
SUCCESSORS
Defendant(s).

ORDER ON DEFENDANTS' MOTION TO STAY
THIS CAUSE having come on to be heard by the
Court on June 21, 2019 and the Court being
otherwise duly advised in the premises it is hereby,
ORDERED and ADJUDGED that:
1. The Defendants' Motion to Stay is hereby DENIED
day of

DONE AND ORDERED on this

/

Ul

Kevin B. Weiss'
Circuit Judge

App. 6
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing was filed
with the Clerk of the Court this

day of

»20 /
by using the Florida Courts EFiling Portal System. Accordingly, a copy of the
foregoing is being served on this day to all
attorney(s)/interested parties identified on the e
Portal Electronic Service List, via transmission of
Notices of Electronic Filing generated by the e Portal
System.
I HEREBY CERTIFY that a copy of the
day of
foregoing was furnished on
20_L£ by US Mail to
Manohar Jain 4800 S Apopka-Vineland Rd Orlando,
FI 32819
Usha Jain As Trustee And Its Successors 4800 S
Apopka - Vineland Rd Orlando, Ft 32819
Jill Gay, Judicial Assistant to
Judge Kevin B. Weis

App. 7
Filing# 91622036 E-Filed 06/25/2019 11:27:04 AM
IN THE CIRCUIT COURT OF THE
NINTH JUDICIAL CIRCUIT, IN AND
FOR ORANGE COUNTY, FLORIDA
BAY HILL PROPERTY OWNERS
ASSOCIATION INC.
Plaintiff(s),
2015-CA-008175-0
vs.
MANOHAR JAIN
USHA JAIN AS TRUSTEE AND ITS
SUCCESSORS
Defendant(s).
ORDER ON DEFENDANTS’OBJECTION TO
HEARING ON PLAINTIFF'S MOTION
FORATTORNEY’S FEES AND COSTS
THIS MATTER came before the Court on June
21, 2019 on Defendants' Objection to Hearing on
Plaintiffs Motion for attorney’s Fees and Costs, and
the Court, having reviewed the file and being
otherwise fully informed, finds as follows:
1. This case involves a claim brought by the
Defendants' homeowners association involving a
property owned by the Defendants. The homeowners
association filed a Complaint in Orange County
Court alleging that the owners were in violation of
Article 9 of the Restrictive Covenants by failing to
maintain and landscape the lawn on the property
and by refusing to clean and repair the exterior of
the house. Amended Complaint, Para. 6-7.

App. 8
2. On February 25, 2016, Judge Rest entered a Final
Judgment in favor of the Plaintiff In the Final
Judgment, Judge Rest awarded attorney’s fees to the
Plaintiff pursuant to the Covenants but retained
jurisdiction as to any supplemental requests for
attorney’s fees. See Para. 10 of the Final Judgment
and Para.7 of the Ordered and Adjudged section of
the Final Judgment.
3. On March 7, 2016, the Plaintiff filed "Plaintiffs
Motion for attorneys Fees" claiming that it was
entitled to additional attorneys’ 'fees and costs
related to the continued enforcement of the
Covenants.
4. Over the course of a few years, the Plaintiffs
challenged Judge Rest's Final Judgement with
various motions. The second judicial officer involved
with the case, Judge White, denied some of the
Defendants' motions, On May 18, 2018, the
undersigned judge heard additional motions filed by
the Plaintiffs including "Defendant's Verified
1.540(b) Motion to Vacate Judgment of 2/25/16 and
Plaintiffs Motion to Enforce Final Judgment and for
Contempt,." In an Order dated June 15, 2018, this
Court GRANTED the Plaintiffs Motion and DENIED
the Defendants' Motion. This Court retained
jurisdiction to issue an Order as to Plaintiff s
supplemental request for fees and costs. On June 19,
2018, the Defendants filed a 'Notice of Direct Appeal"
of this Court's orders. On the same date, the
Defendants requested a stay until after the appellate
proceeding. The appeal proceeded in the Fifth
District at Case No. 5D18-2033. On June 26, 2018,
the Plaintiff filed "Plaintiffs Supplemental Motion for
Attorneys' Fees." Along with the motion, the Plaintiff

App. 9
filed an Affidavit of attorney Maya M. Hatchette,
Esq. which provided specific information regarding
the additional attorneys' fees and costs her firm
incurred in the litigation. The Plaintiff also filed the
Affidavit of attorney Neil A. Saydah, Esq., in support
of the claim for attorney's fees and costs. 7. The
Plaintiff set its fees and costs motion for July 19,
2018, October 5, 2018 and December 7, 2018. The
Court did not proceed with the hearing on fees and
costs until after the appeal was concluded.
8. On February 26, 2019, the Fifth District
AFFIRMED this Court's decision and GRANTED
Appellee's Motion for attorney’s Fees and Costs. The
matter was remanded for a finding of reasonable
attorney’s fees. After unsuccessful motions for
rehearing, the Fifth District issued its Mandate on
April 22, 2019.
9. On March 14, 2019, the Plaintiff filed its Third
Amended Notice of Hearing scheduling a hearing to
determine its attorney’s fees and costs for June 21,
2019. T\e hearing notice provided the Defendants
with information about the matters to be heard, the
location of the hearing and the time and date of the
hearing.
10. On May 24, 2019, the Plaintiff filed a "Motion to
Determine Amount of Appellate attorneys' Fees and
Costs."
11. On May 28, 2019, the Plaintiff filed an
"Amended Affidavit of attorneys ' Fees and Costs"
providing the appellate timesheets and costs for Ms.
Hatchette and another attorney involved with the
appeal, Mr. Roy.

App. 10
12. On June 3, 2019, despite this Court's prior
Orders regarding entitlement and the Fifth District's
Mandate, the Defendants' filed a Memorandum in
opposition to the Plaintiffs request for attorney’s fees
and costs. The Defendants also requested a stay
of all proceedings until they are able to file a "Writ of
Certiorari" to the United States Supreme Court.
13. On June 10, 2019, the Plaintiff filed an "Affidavit
of Reasonableness of attorneys ' Fees" regarding the
appellate fees from Michael M. Brownlee, Esq., a
board-certified appellate attorney. Plaintiff also filed
an "Amended Affidavit of Reasonableness of
attorneys ' Fees" from Mr. Saydah regarding the trial
court fees.
14. On June 12, 2019, the Defendants filed another
Memorandum in opposition to the Plaintiffs request
for Attorney’s and costs. The Defendants also sought
to stay the proceedings in the case which was
opposed by the Plaintiff in writing on June 14, 2019.
The basis of the Defendants' opposition to the fee
hearing involved the Defendants' displeasure with
the Fifth District's decision and their intent to seek
relief at the United States Supreme Court. The
Defendants also mentioned that they wanted a
hearing on alleged fraud on the court and needed fee
related discovery.!
15. On June 21, 2019, the Court held a hearing on
the Plaintiffs claim for trial and appellate fees. The
I On the same day that the Defendants filed their request for stay,
they also served a Request to Produce requesting fee discovery'

£

App. 11
Defendants had crossed noticed the hearing for a
stay which the Court denied. The Defendants also
objected, for the first time, on the basis that the
Plaintiffs hearing notice did not specifically indicate
that evidence would be taken at the June 21, 2019
hearing. The Court overruled the Defendants'
objection, finding that the Defendants had ample
time to prepare for the fees and costs hearing and
that the Defendants knew or should have known that
the June 21, 2019 hearing would require evidence.
Further, the Court found that for well over a year the
Plaintiff had been providing the Defendants with
information about their claim for supplemental fees
and the experts who would be offering testimony.
16. The Court finds that the Defendants had more
than 3 months to prepare for the fees and costs
hearing. At no time during these months did the
Defendants raise any concern about the Third
Amended Notice of Hearing. The Defendants'
objections, noted above, involved the Court
proceeding with the fees and costs hearing prior to
the U.S. Supreme Court hearing their grievance
about the Fifth District. It also involved the
Defendants' demand that this Court hear about
"fraud" issues that, upon review, this Court finds
were either resolved by the Fifth District or should
have been raised in the appeal to the Fifth District.
17. At the hearing, the Defendants attempted to
argue that due to the hearing notice, they were not
provided due process. Although the better practice is
for the hearing notice to expressly state that
evidence will be taken, this technicality in the
hearing notice should not prevent the Plaintiff from
its day in court after waiting for more than a year,

App. 12
and after giving the Defendant ample notice of the
hearing and the evidence that would be presented.

'

18. The Court finds that there was no due process
violation by proceeding with a hearing that the
Defendants had known would occur for well over a
year. "A fundamental requirement of due process in
any judicial proceeding is notice reasonably
calculated both to apprise interested parties of the
pendency of the action, and to give the party so
notified an opportunity to present his or her side of
the controversy." Miller v. Partin, 31 5o.3d224, 227
(Fla.5th DCA 2010).
19. There is no question that the Defendants' counsel
knew or should have known that the evidence that
had been filed repeatedly over the years would be
considered by the Court. Further, as entitlement to
fees had been established, the only remaining issues
involved amount of fees and costs. Dabas v .Bos.
Inv'rs Grp., Inc.,231 So.3d. 542, 546 (Fla. 3d DCA
2017)(Borrower's due process rights were not
violated because the Borrower received notice of the
hearing and was given an opportunity to be heard.).
20. All of the interested parties appeared before the
Court on June 21, 2019 and were provided notice
that the Court, at that time, would consider the
already filed Affidavits by the attorneys and the
experts. Any argument by the Defendants that they
were not prepared for the fee hearing is both
disingenuous and a symptom of their own failure to
timely prepare. The Defendants had been in
possession of the Plaintiffs timesheets and affidavits
for a considerable amount of time and only filed a
Request to Produce shortly prior to the hearing.

App. 13
Despite waiting until the "last minute" to send a
Request to Produce, the Plaintiffs provided the
Defendants with ample information to assist them
with preparation for the fee hearing. If the
Defendants had an issue with the hearing notice, or
the taking of evidence, the Defendants could have
and should have raised the issue prior to the hearing
with a written objection, a Motion to Continue, or at
a minimum, a motion seeking discovery with a
shortened time frame. Rather, the Defendants
remained silent as to the alleged "defective" notice,
relying on their request for a stay.
21. In sum, the Court finds that the Plaintiff
provided the Defendants with sufficient notice of the
hearing, full opportunity to be heard, and adequate
time to examine the witnesses. Accordingly, there
was no due process violation as claimed by the
Defendants.
DONE AND ORDERED in Chambers, at Orlando, Orange County.
Florida, on this

day of

if, 20 I?.

/ f/

UL..... _

Kevin B. Weis?---Circuit Judge

App. 14

S' ;

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing was filed
3^ day of
with the Clerk of the Court this
,20 f *7 by using the Florida Courts EFiling Portal System. Accordingly, a copy of the
foregoing is being served on this day to all
attorney(s)/interested parties identified on the e
Portal Electronic Service List, via transmission of
Notices of Electronic Filing generated by the e Portal
System. I HEREBY CERTIFY that a copy of the
day of
foregoing was furnished on
UTui^.-e..

20J5. by US Mail to

Manohar Jain 4800 S Apopka-Vineland Rd Orlando,
FI 32819
Usha Jain As Trustee And Its Successors 4800 S
Apopka - Vineland Rd Orlando, Ft 32819
Jill Gay, Judicial Assistant to
Judge Kevin B. Weis

tT

L

App. 15
Filing# 91642335 E-Filed 06/25/2019 02:27:24 PM
IN THE CIRCUIT COURT OF THE
NINTH JUDICIAL CIRCUIT, IN AND
FOR ORANGE COUNTY, FLORIDA

BAY HILL PROPERTY OWNERS
ASSOCIATION INC.
Plaintiff(s),
2015-CA-008175-0
vs.
MANOHAR JAIN
USHA JAIN AS TRUSTEE AND ITS
SUCCESSORS
Defendant(s).

FINAL JUDGMENT AWARDING ATTORNEYS'
FEES AND COSTS
THIS CAUSE came before the Court on the 21't
day of June, 2019 on Plaintiffs Supplemental Motion
for Attorneys' Fees (the "Motion") and Motion to
Determine Amount of Appellate Attorneys ' Fees and
Costs (the "Appellate Motion"), and the Court having
reviewed the Court file, heard testimony as to the
fees and costs
amount of reasonable Attorneys
incurred by Plaintiff in this matter, the argument of
counsel, weighed the weight and credibility of the
witnesses, used its own knowledge and being
otherwise fully advised in the premises, the Court
finds as follows:

App. 16
1. The Court has jurisdiction over the subject matter
and the parties. The Court expressly finds that
the Defendants had sufficient notice of this
hearing and that the Filing # 91642335 E-Filed
06/25/2019 02:27:24 PM 2. Defendants were
provided ample opportunity to evaluate, review
and analyze the Plaintiffs attorneys' timesheets,
as well as the affidavits of the experts. 1
2. Plaintiffs requests for supplemental attorneys'
fees for trial court and appellate legal work is
GRANTED. The Court notes that in a Final
Judgment dated February 25, 2016, this Court,
Judge Rest presiding, awarded entitlement and
amount of certain trial court fees and reserved
jurisdiction to consider Plaintiff s supplemental
motions for attorneys' fees. Also, the Fifth District
Court of Appeals awarded entitlement to
appellate attorneys' fees pursuant to an Order
dated February 26, 2019.2
3. The Court's findings summarized below are a
result of the evidence presented and the
arguments presented by the parties. Further, the
Court has considered the factors set forth in Rule
4-1.5 Rules Regulating the Florida Bar. and
v.
Florida
Patient's
Compensation
Fund
Rowe,412So.2dlla5 (Fla. 1985).

t On June 25,2019, this Court issued an Order on the
Defendants' objection to the hearing notice raised for the first
time at the fee hearing.
2 Pursuant to the Fifth District Court of Appeals Order dated
February 26, 2019 granting Appellee/Bay Hill's Motion for
Attorneys’ ' Fees and Costs pursuant to Rule 9.400(b). Florida
Rules of Appellate Procedure and Section 57.105 Florida
Statutes, this Court found that it was required to "determine and
assess reasonable attorney's fees for this appeal."

App. 17
4.

The Plaintiff is entitled to an award of appellate
attorneys' fees, trial court attorneys' fees and
costs totaling $12,673.60 which is comprised of
the following amounts:
a. Attorneys' fees associated with the appellate
proceeding (Case No.: 5D18-2033), totaling
$15,099.00 which is comprised of the following
amount:
1. $15,099.00 in attorneys' fees for
Winderweedle, Haines, Ward & Woodman based
on the Court's findings as follows:
a $240.00 per hour is a reasonable hourly
rate for Attorneys My a M. Hatchette and 4.2
hours is a reasonable number of hours expended
for the work performed by Ms. Hatchette;
b $295.00 per hour is a reasonable hourly
rate for Attorney C. Andrew Roy and 41.8 hours
is a reasonable number of hours expended for the
work performed by Mr. Roy;
c
$320.00 per hour is a reasonable hourly
rate for Attorney C. Andrew Roy (change in rate
due to promotion) and 4.6 hours is a reasonable
number of hours expended for the work
performed by Mr. Roy;
d $240.00 per hour is a reasonable hourly
rate for Attorney Brandon DeGel and .9 hours is
a reasonable number of hours expended for the
work performed by Mr. DeGel;
b Attorneys' fees associated with the trial court
proceedings totaling $13,047.00 which is
comprised of the following amount:
1
$13,047.00
in
attorneys'
fees
for
Winderweedle, Haines, Ward & Woodman based
on the Court's findings as follows:

App. 18
a $225.00 per hour is a reasonable hourly
rate for Attorney My a M. Hatchette and 32.9
hours is a b. b. reasonable number of hours
expended for the work performed by Ms.
Hatchette;
b $240.00 per hour is a reasonable hourly
rate for Attorney My a M. Hatchette and 10.7
hours is a reasonable number of hours expended
for the work performed by Ms. Hatchette;
c $200.00 per hour is a reasonable hourly
rate for Attorney Brandon DeGel and 5.2 hours
is a reasonable number of hours expended for the
work performed by Mr. DeGel;
d $240.00 per hour is a reasonable hourly
rate for Attorney Brandon DeGel and .9 hours is
a reasonable number of hours expended for the
work performed by Mr. DeGel;
e $105.00 - $150.00 per hour are reasonable
hourly rates for paralegals and 14.9 hours is a
reasonable number of hours expended for the
work performed by the paralegals.
c Plaintiff is awarded taxable costs totaling
$4,527.60 which is comprised of the following
amounts'.
1. $1,785.00 for expert witness fee of Neil
Saydah, Esquire, based on this Court's
finding that $350.00 is a reasonable hourly
rate and 5.1 hours is a reasonable number
of hours d. e. 4 expended for the work
performed by Neil Saydah, Esquire in this
action. The Court finds that Mr. Saydah's
testimony was helpful and he expected to be
paid for his services. See Travieso v.
Travieso, 47 4 So. 2d 1 I 84 (Fla, 1985);
Stokus v. Phillips, 65 1 So. 2d 1244 (Fla.

App. 19
2nd DCA 1995); and Mangel v. Bob Dance
Dodge, Inc., 739 So. 2d 720 (Fla.5th DCA
r999);
2. $2,000.00 for expert witness fee of Michael
Brownlee, Esquire, based on this Court's
finding that $400.00 is a reasonable hourly
rate and 5 hours is a reasonable number of
hours expended for the work performed by
Michael Brownlee, Esquire in this action.
The Court finds that Mr. Brownlee's
testimony was helpful and he expected to be
paid for his services. See Travieso v.
Travieso,474 So.2d 1184 (Fla, 1985); Stokus
v. Phillips,651 So.2d 1244 (Fla. 2nd DCA
1995); and Mangel v. Bob Dance Dodge,
Inc.,739 So. 2d 720 (Fla. 5th DCA 1999);
3. 5'142.60 for court reporter time and
transcription
IT
IS
THEREFORE
ORDERED
AND
ADJUDGED that Plaintiff, BAY HILL PROPERTY
OWNERS ASSOCIATION, INC., whose address is
do Mya M. Hatchette, Esquire, Winderweedle,
Haines, Ward & Woodman, PA, 329 N. Park
Ave.,2nd Floor, Winter Park, Florida 32789, shall
recover from Defendants, Manohar Jain, as Trustee,
and its Successors or Successor Trustees Under the
Manohar Jain Trust Dated July 1, 2000 and Usha
Jain, as Trustee, and its Successors or Successor
Trustees Under the Usha Jain Trust Dated July 1,
2000, the total amount of $32,673.60, for which let
execution issue FORTHWITH
IT IS FURTHER ORDERED AND ADJUDGED
1 That the judgment debtors shall complete under
oath Florida Rule of Civil Procedure Form 1.977
(Fact Information Sheet), including all required

App. 20
attachments, and serve it on the judgment creditor's
attorney within forty-five (45) days from the date of
this Final Judgment, unless this Final Judgment is
satisfied or post-judgment discovery is stayed.
2. Jurisdiction of this case is retained to enter
further orders that are proper to compel the
judgment debtors to complete Form 1.977, including
all required attachments, and serve it on the
judgment creditor's attorney..
3 Jurisdiction of this case is also retained to enter
further orders pertaining to attorneys' fees and costs,
including attorney's fees and costs related to the
Defendants' continued denial of entitlement to the
Plaintiffs fees.
DONE AND ORDERED in Chambers at Orlando, Orange County,
Florida,, on this t*-2-

day of

'if)v4--- . ?.o if.

f

Circuit Judge

App. 22
Filing# 93587321 E-Filed 08/02/2019 01:48:44 PM
IN THE CIRCUIT COURT OF THE
NINTH JUDICIAL CIRCUIT, IN AND
FOR ORANGE COUNTY, FLORIDA
BAY HILL PROPERTY OWNERS
ASSOCIATION INC.
Plaintiff(s),
2015-CA-008175-0
vs.
MANOHAR JAIN
USHA JAIN AS TRUSTEE AND ITS
SUCCESSORS
Defendant(s).
ORDER ON MOTIONS FOR REHEARING
THIS MATTER comes before the Court on Motions
for Rehearing, and the Court, having reviewed the
file and being otherwise fully informed, finds as
follows:
1. The Motion for Rehearing dated July 9, 2019 and
the Amended Motion for Rehearing dated July 10,
2019 are DENIED.
DONE AND ORDERED in Chambers, at Orlando,
Orange County, Florida, on this

/

day of

Kevin D. Weiss'Circuit Judge

App. 23
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing was filed
with the Clerk of the Court this 2nd day of j, ZO /9
Ay using the Florida Courts E-Filing Portal System.
Accordingly, a copy of the foregoing is being served
on this day to all attorney(s)/interested parties
identified on the e-Portal Electronic Service List, via
transmission of Notices of Electronic Filing
generated by the e-Portal System. Jill Gay, Judicial
Assistant to Judge Kevin B. W

If0
Jill G;|y, Judicial Awastadi J

-f

'

